           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   ACTION: Audit of Use of Government Travel                    Date:   August 28, 2003
           Charge Cards, DOT
           FI-2003-049

  From:    Alexis M. Stefani                                        Reply To
                                                                     Attn Of:
           Principal Assistant Inspector General                                JA-60
            for Auditing and Evaluation

    To:    Acting Assistant Secretary for Budget and Programs
            and Chief Financial Officer
           Assistant Secretary for Administration


           This report presents the results of our audit of the Department of Transportation’s
           (DOT) use of Government travel charge cards (travel cards). Our audit objectives
           were to determine whether: (1) employees used DOT travel cards only for official
           business; (2) delinquent travel card accounts were monitored and addressed; and
           (3) internal controls were adequate to provide safeguards against abuse and
           delinquencies. Our audit scope and methodology are discussed in Exhibit A.

           INTRODUCTION
           The Travel and Transportation Reform Act of 1998 and Federal Travel
           Regulations require that Federal employees obtain and use a contractor-issued
           Government travel card to pay for all official travel-related expenses. The
           regulations state that each employee who receives a travel card is responsible for
           using it for official purposes only and for paying the charges timely. With the
           travel card, each employee receives an account agreement specifically stating that
           the employee is prohibited from using the travel card for “personal, family, or
           household purposes.” The card also is clearly imprinted “For Official Government
           Travel Only.”

           Citibank, a contractor under the General Services Administration (GSA) SmartPay
           Travel Card Program, is DOT’s service provider for travel cards. As of June 30,
                                                                                                             2



2002, about 90,000 DOT employees had Government travel cards, with charges of
about $250 million annually.1

RESULTS IN BRIEF
Proper use of employee-issued travel cards and payment of the charges are
Government-wide concerns. Although the vast majority of DOT employees have
not abused their travel card privileges, our audit identified employees who
misused their travel cards by charging personal purchases and withdrawing cash in
excess of travel needs. We also identified employees who abused their travel card
accounts by not paying their bills on time. We commend DOT for initiating
several corrective actions, including recent revisions (June 30, 2003) to its travel
card policy, to address problems of travel card abuses that were identified during
our audit. The travel card program is a highly visible program, and the abuses of
travel card privileges by a small minority of employees reflect negatively on the
entire Department. As discussed in this report, there are additional steps DOT can
take to improve its travel card program.

Using methodologies aimed at identifying employees who misused their travel
cards or were delinquent with their payments,2 we selected 146 DOT employees
for review. We reviewed over 12,000 charges totaling about $1.7 million on these
employees’ travel cards that occurred during the audit period July 1, 2001, through
June 30, 2002. Our audit found that 96 of these employees abused their travel
cards by charging personal purchases, withdrawing cash in excess of travel needs,
or not paying their bills on time. About $770,000 of the charges we reviewed
were for personal purchases or excess cash, and 22 of the 96 employees were
delinquent in paying their bills. Of those delinquent employees, all but one also
misused their cards by charging personal expenses or withdrawing excess cash.
Further, none of the delinquencies was due to delays in processing official travel
reimbursements.

By abusing their travel cards, employees violated their account agreements with
Citibank, the DOT travel card policy, and the Government’s Standards of Ethical
Conduct for Employees of the Executive Branch regulations. In addition,

1
    As of June 2003, only about 30,000 DOT employees had Government travel cards, because the
    U.S. Coast Guard and the Transportation Security Administration transferred to the Department of
    Homeland Security on March 1, 2003.
2
    In this report, we refer to “delinquent employees” as those whose accounts are more than 60 days past
    due (i.e., past the billing date). Although an account is technically delinquent if the balance is not paid
    by the payment due date (which is 1 month after the statement date), we recognized that some
    employees had not received their reimbursements prior to their bills’ due dates. Thus, we allowed
    employees an additional 30 days from the due dates to have their vouchers processed and receive their
    reimbursements before categorizing them as delinquent.
                                                                                                      3



delinquencies cost DOT up to $160,000 in fiscal year (FY) 2002 in the form of
reduced rebates from Citibank.3 Further, DOT employees who were delinquent in
paying their travel card bills personally benefited by, in effect, receiving interest-
free loans. In addition, those employees whose accounts were written off and who
did not pay the balance were unjustly enriched. Although these employees
represent a small percentage of DOT employees, their abuses of Government
travel cards detract from the honesty and integrity of the rest of DOT’s employees.

In this report, we recommended that DOT use our data mining approaches to
identify other employees who abused their travel card privileges. The Department
concurred with this recommendation and added that travel card program
coordinators will be trained on these approaches.

Misuse for Personal Expenses or Cash
Of the 96 employees reviewed who abused their travel cards, 95 employees:4
(1) charged personal expenses, such as cable/telecommunications services,
medical procedures, and personal travel expenses; (2) withdrew cash in excess of
allowable travel advances or when no travel was involved; or (3) did both of the
preceding.

The following are examples of the misuse we found.

     • A Federal Railroad Administration (FRA) employee charged $15,295 for
       personal cable and satellite services.

     • A Maritime Administration (MARAD) employee charged $8,600 for
       personal cash and airline and hotel costs.

     • A Federal Aviation Administration (FAA) employee charged $3,700 for
       laser eye surgery.

     • A U.S. Coast Guard (Coast Guard) employee made 31 cash withdrawals
       totaling $3,480 in a 6-month period but was not on official travel.

     • A Transportation Security Administration (TSA) employee charged $2,900
       for personal cash and car rental, airline, and hotel costs.


3
    Rebates are calculated using a complex formula that considers total amount of charges and timely
    payment of balances.
4
    The one other employee who abused the travel card did not make any personal purchases or excess cash
    withdrawals but was significantly delinquent in paying the bills.
                                                                                                           4



     • An FRA employee charged $950 to pay for furniture.

Of the 95 employees who misused their travel cards, 93 employees charged about
$407,000 for personal goods or services, and 48 withdrew about $361,000 in
excess cash over a 1-year period.

The misuses for personal expenses and cash that we identified were in violation of
the cardholder agreement, which clearly states the employee is not to use the travel
card for personal purposes. In addition, we found that DOT could have done more
to detect and prevent such misuses. For example, prior to the June 2003 travel
card policy revisions, DOT’s policy only required travel card program
coordinators to monitor for delinquencies. Further, the policy did not set limits on
cash withdrawals. In response to our concerns, DOT issued a revised travel card
policy, which will strengthen oversight of the travel card program. We referred
the 95 cases of misuse to our Office of Investigations for further review and
appropriate action.

Employees Delinquent in Paying Travel Card Bills
Of the 96 employees who abused their cards, we identified 22 who were
delinquent in paying their bills. Of the 25 Federal agencies using GSA’s
SmartPay travel card, DOT had the highest delinquency rate as of January 2003—
12.9 percent compared to an average of 7.2 percent for the other agencies.5 In
addition, delinquencies and write-offs of balances by Citibank resulted in DOT
losing up to $160,000 in rebates in FY 2002. As of May 2003, DOT’s
delinquency rate had dropped to 5.8 percent using GSA’s methodology for
calculating delinquency rates.6

During our audit, we identified two best practices available to DOT to help control
delinquencies. First, the Travel and Transportation Reform Act allows agencies to
deduct the amount of delinquent funds from an employee’s pay. Another method
is split reimbursements, where employees receive part of their travel voucher
reimbursements and part is sent directly to Citibank to pay the bills.7 Only Coast

5
    Without Coast Guard and the Transportation Security Administration, which have since transferred to
    the Department of Homeland Security, DOT’s delinquency rate would have been 7.4 percent.
6
    Using an alternate methodology, DOT’s Office of Financial Management calculated that DOT’s
    delinquency rate as of May 2003 was 3.5 percent. GSA and the credit card banks calculate delinquency
    rates by dividing agencies’ total outstanding monthly balances (dollars) into the balances that are
    overdue between 61 and 181 days after the billing dates. The Office of Financial Management
    calculates delinquency rates from the bills’ due dates, which are usually 30 days from the billing dates.
7
    As an example of a split reimbursement: an employee submitted a voucher for official travel expenses
    of $1,000. On this trip, the employee charged $700 in expenses (e.g., air fare and all hotel charges,
    which could include restaurant charges). The employee would be reimbursed for $300, and $700 would
    be disbursed directly to Citibank.
                                                                                 5



Guard had implemented these methods. We note that, after our audit, DOT
initiated steps to broaden the implementation of these best practices.

DOT’s delinquencies occurred because employees did not comply with their
Citibank account agreements or DOT travel card policy, and managers did not
perform adequate oversight of employee travel card use and did not take
advantage of best practices to control delinquencies.

Disciplinary Action Was Inconsistent
The Operating Administrations’ policies regarding disciplinary actions for travel
card abuses were inconsistent. Three Operating Administrations had no travel
card policies. The policies of the other 10 Operating Administrations addressed
disciplinary actions, but they differed in the severity of the recommended actions.
For example, the Federal Motor Carrier Safety Administration’s (FMCSA)
disciplinary action for employees who had not paid their bills within 60 days of
the due dates called for 2- to 30-day suspensions. However, FAA’s disciplinary
action for the same offense only called for a reprimand.

DOT Actions Taken to Strengthen Controls
DOT has initiated several corrective actions, including recent revisions to its
policy, to address problems of travel card abuses that we identified in this audit.
For example, on June 30, 2003, the Office of the Secretary (OST) issued policy
revisions that require the Operating Administrations to monitor for travel card
misuse (e.g., review activity reports and identify personal charges) in addition to
delinquencies; set stringent limits on cash withdrawals; and provide guidance on
disciplinary actions for the abuses. Furthermore, between July 2002 and January
2003, DOT blocked from travel card use specific categories of inappropriate
merchants (see Table 2 on page 9 for examples), which means Citibank will
decline attempted travel card purchases at these merchants. To stress the
importance of addressing delinquencies, OST will provide each Operating
Administration quarterly lists of their delinquent employees and require the
Operating Administrations to notify OST as to the resolutions of these accounts.

We believe the recent policy revisions and additional actions recommended in this
report can be effective in strengthening the oversight of DOT’s travel card
program. However, the key to correcting travel card problems is to follow through
and ensure that the Operating Administrations implement the policy revisions.
                                                                                  6



RECOMMENDATIONS
We made six recommendations to build on current initiatives and to strengthen
internal controls over the travel card program. In summary, we are recommending
that the Office of the Secretary, in coordination with the Operating Administrators:

   • Use data mining tools—such as reviews of Citibank databases for
     transactions to inappropriate merchants, comparisons of employees’ travel
     card charges to their travel vouchers, and reviews of employees’ cash
     withdrawals—to identify abusive travel card activity and ensure
     compliance with DOT policy;
   • block additional merchant category codes;
   • implement to the maximum extent possible the best practices of salary
     offsets and split travel reimbursements for employees that have become
     delinquent; and
   • report to the Office of Inspector General (OIG) the actions taken with
     respect to the employees identified by our audit work as having abused
     their travel cards.

Detailed recommendations are provided on pages 17 and 18.

DOT Corrective Actions. DOT agreed with all of our recommendations and is
taking or has already taken corrective actions in response to our audit.
Management’s comments and our responses are provided on pages 18 through 20.
The complete text of management’s comments is in the Appendix.

BACKGROUND
The Travel and Transportation Reform Act of 1998 (Public Law 105-264) and
Federal Travel Regulations (FTR) require Federal employees to obtain and use a
contractor-issued Government travel card to pay for all official travel-related
expenses. DOT uses Citibank as its service provider for travel cards.

The FTR and Citibank Cardholder Agreement state that each employee is
responsible for using the travel card for official purposes only and paying the
charges timely. Further, the statement “For Official Government Travel Only” is
clearly imprinted on the face of the travel card.

On March 26, 2002, the DOT Assistant Secretary for Budget and Programs and
Chief Financial Officer, who is responsible for the travel card program, issued
departmentwide travel card policy. The policy states:
                                                                                    7



      When employees apply for a contractor-issued credit card, they
      assume the responsibility to use the card for official purposes and pay
      the charges in a timely manner. These responsibilities are explained
      in the Cardholder Agreement that each employee signs during the
      application process.

The policy requires that the Operating Administrations have their designated travel
card program coordinators monitor monthly delinquency reports provided by
Citibank and provide these reports to supervisors of delinquent employees for
appropriate action. The policy further directs supervisors to take disciplinary
actions, which can include salary offset, suspension, and termination, against
employees whose accounts become delinquent.

On June 30, 2003, DOT issued policy revisions that included new requirements for
the Operating Administrations regarding monitoring for misuse, limits on cash
withdrawals, delinquencies, and disciplinary actions.

RESULTS
We reviewed over 12,000 charges totaling about $1.7 million made by
146 nonstatistically selected DOT employees on their Government travel cards.
Our audit found that, of the 146 DOT employees we reviewed, 96 abused their
travel cards by charging personal purchases, withdrawing cash in excess of travel
needs, or not paying their bills on time. In total, about $770,000 of the charges by
95 employees reviewed were for personal purchases or excess cash, and
22 employees were delinquent in paying their bills.

Table 1 summarizes our findings of abuse and delinquencies.


                    Table 1. Summary of 96 Employees
                         Who Abused Travel Cards
                                       Totals            Delinquent
               Misuse                    95                  21
               No Misuse                  1*                  1
                   Total                 96                  22
                *   This employee abused the travel card by not paying her bills
                    over a 180-day period and having her account written off; all
                    her charges were for official travel expenses.
                                                                               8



By abusing their travel cards, employees violated their travel card account
agreements with Citibank, the DOT travel card policy, and the Standards of
Ethical Conduct for Employees of the Executive Branch regulations (Title 5 Code
of Federal Regulations Part 2635 et seq.). In addition, delinquencies and write-
offs of balances by Citibank resulted in costs to DOT in the form of reduced
rebates. For example, in FY 2002 DOT could have received about $160,000 in
rebates; however, because of the number and dollar-volume of delinquencies and
write-offs, DOT did not receive any rebates. Further, DOT employees who were
delinquent in paying their travel card bills personally benefit by, in effect,
receiving interest-free loans. In addition, those employees whose accounts were
written off and who did not pay the balance were unjustly enriched.

Misuse for Personal Expenses and Cash
Of the 96 DOT employees in our sample who abused their travel cards,
95 employees charged: (1) personal expenses, such as cable/telecommunications
services, medical procedures, and personal travel expenses (93 employees);
(2) cash withdrawals in excess of allowable travel advances or when no travel was
involved (48 employees); or (3) both of the preceding (46 employees).

Personal Purchases. Our audit identified 93 employees who misused their
travel cards by charging about $407,000 for personal goods or services. For
example:

   • An FRA employee charged $15,295 for personal cable and satellite
     services. The employee also charged $922 in personal travel expenses and
     $85 for county taxes. The employee paid his credit card bills on time.

   • An FAA employee charged $3,700 for laser eye surgery. The employee
     claimed this was a medical emergency and that she had no other card to
     use. The employee was counseled by her supervisor after we notified him
     of the abuse. The employee paid her credit card bills on time.

   • A MARAD employee charged $4,600 for personal airline and hotel costs.
     The employee also obtained two cash advances totaling $4,000 but was not
     on official travel. The employee paid his credit card bills on time.

Misuse of travel cards for personal expenses occurred in two types of purchases –
non-travel purchases (such as cable TV and doctors’ services) and travel-related
purchases (such as airline and hotel expenses). These two types of personal use
require different actions to identify and different internal controls to reduce
misuses in the future.
                                                                                 9




Program coordinators can easily identify non-travel charges by scanning monthly
cardholder activity reports available from Citibank for personal expenses such as
doctors’ services and sporting goods. To further address travel card misuse for
non-travel expenses, categories of merchant codes that are clearly not for
Government travel (such as dating/escort services and betting facilities) can be
blocked from use by DOT employees. The Departments of Defense and
Education consider this a best practice and have each blocked over 200 merchant
codes.

As of April 2003, at the request of DOT, Citibank blocked 46 merchant categories
departmentwide that were determined to be inappropriate for official travel.
Examples of these blocked categories are provided in Table 2.


               Table 2. Examples of Merchant Categories
                        Blocked Departmentwide
        Merchant Category             Code      Merchant Category     Code
  Dating/Escort Services              7273    Fines                   9222
  Massage Parlors                     7297    Bail & Bond Payments    9223
  Betting Facilities                  7995    Tax Payments            9311
  Court Costs, incl. Child Support    9211    Food Stamps             9401



In addition, Coast Guard and FAA blocked another 155 and 70 codes,
respectively, for their travel cards. Examples of the additional categories blocked
by Coast Guard and FAA are given in Table 3.


               Table 3. Examples of Merchant Categories
                   Blocked by Coast Guard and FAA
      Merchant Category              Code        Merchant Category    Code
  Veterinary Svcs.                    742    Florists                 5193
  Landscaping                         780    Boat Dealers             5551
  Heating/Plumbing                   1711    Pawn Shops               5933
  Roofing/Siding                     1761    Insurance Underwriting   6300



Based on the abuses we found (e.g., cable TV services, health spa services, and
sporting goods), DOT is not taking full advantage of this method to reduce misuse.
                                                                                                       10



Thus, we are recommending that OST review the merchant categories again and
block additional categories that are clearly not for official Government travel.

Detecting personal travel-related charges, such as airline and hotel expenses, is
not as easy. Identifying employee misuse for personal travel-related expenses
requires comparing employees’ charges to travel vouchers. In total, we identified
81 employees who misused their travel cards in this way.

As part of our audit, we developed a computer matching technique to help identify
this type of misuse. Our matching process compared employees’ Citibank charges
for airline and hotel expenses to travel reimbursements made to employees as
reflected in the Departmental Accounting and Financial Information System
(DAFIS).8 For the year ending June 30, 2002, this matching process identified
about 4,700 employees who had airline and hotel charges but did not have
corresponding travel voucher payments in DAFIS. We nonstatistically selected
71 of these employees, reviewed over 1,300 of their travel card transactions, and
identified 29 who charged personal travel expenses on their Government travel
card.9

Our other data mining methodologies (e.g., selecting employees for review who
had their cards canceled or who had written three or more non-sufficient funds
[bounced] checks to Citibank) identified the other 52 employees (81 minus 29)
who did not have travel vouchers to support their charges for airline, hotel, car
rental, and restaurant expenses10 totaling about $170,000. Prior audit work by the
Department of Education OIG and the General Accounting Office (GAO)
demonstrated that these data mining techniques identify employees having a high
potential for misusing the card by making personal purchases.

To effectively monitor and identify personal travel-related charges, Operating
Administrations should periodically perform their own matching process; data-
mine Citibank databases for abusive activity; or randomly compare employees’
travel charges to travel vouchers. In addition, we provided the list of about


8
     For all airline and hotel charges made by DOT employees for the period July 1, 2001, through June 30,
     2002, our matching process checked whether corresponding vouchers had been paid within 90 days of
     when those charges were made.
9
     The other 42 (71 minus 29) employees from our matching process did not misuse their cards—
     14 employees had valid reasons why they did not have DAFIS voucher payments (e.g., they filed their
     vouchers more than 90 days after the charge, their card numbers had been stolen, or they received
     reimbursement from another agency) and 28 were misidentified in the matching process due to coding
     errors in the Citibank or DAFIS databases.
10
     These 52 employees were not identified in our matching process because they also had official travel
     voucher payments in DAFIS.
                                                                                11



4,700 employees to DOT officials to review and identify other employees who
misused their travel cards by charging personal travel expenses.

Misuse also occurred because infrequent travelers’ accounts remained open.
These misuses could have been stopped if the infrequent travelers’ accounts had
been closed or deactivated. In the group of employees who misused their travel
cards, there were eight employees whose accounts remained open even though
they did not have any official travel for a 12-month period. These inactive
accounts are susceptible to unofficial use and abusive activity including
delinquency. Inactive accounts remained open because DOT had no policy that
required the deactivation of infrequent travelers’ accounts.

The misuses for personal non-travel and travel expenses that we identified were in
violation of the cardholder agreement, which clearly states the card is to be used
only for official travel-related expenses. However, these misuses were not
previously identified because DOT’s 1998 and 2002 travel card policies did not
require any official to monitor for misuse. (The 2002 policy only required
monitoring for delinquencies.) Further, DOT did not take full advantage of
available measures to block inappropriate merchant categories, which would
prevent employees from making non-travel-related purchases. Finally, neither the
cardholder agreement nor DOT policy called for any penalties if employees
misused their cards by charging personal items.

Since we initiated our audit, DOT has taken action to correct these deficiencies by
issuing a revised travel card management policy on June 30, 2003, and taking
other corrective actions. Examples of these actions are the requirement to monitor
for misuse and the blocking of additional inappropriate merchant codes. To
further strengthen the program’s controls, DOT should periodically analyze
Citibank databases for abusive activity (data mining), compare employees’ travel
card charges to their travel vouchers, and block all inappropriate merchant codes.

Inappropriate Cash Withdrawals. Of the 95 employees who misused their
travel cards, we identified 48 employees who withdrew cash, usually from
automated teller machines (ATMs), in excess of their travel needs or when they
were not on travel. These employees made over 2,000 excess cash withdrawals
totaling about $361,000 over a 1-year period.

ATM services are provided by the travel card contractor to allow employees to
withdraw cash to use for miscellaneous expenses while on official travel (e.g.,
taxi, tips, and parking). The FTR states that the cash advance should not exceed
the estimated amount of the employee’s cash transaction expenses (expenses that
cannot be charged and must be paid using cash or checks). The GSA SmartPay
                                                                                                       12



contract further states that, at the agency’s request, the bank will set specified
limits on ATM cash withdrawals.

Specific examples of the misuses are provided below.

      • A Coast Guard employee made 31 ATM withdrawals totaling $3,480 in a
        6-month period but was not on official travel. According to the employee,
        his wife was using his travel card without his knowledge, hiding the credit
        card statements, and bouncing checks when sending payments.

      • An FAA employee withdrew $2,900 cash while making an official business
        trip. His voucher for this trip showed total expenses of $2,117. A
        reasonable estimate of cash needs for this trip should have been no more
        than $900 (given that not all meals were charged on the travel card). Thus,
        the employee withdrew an excess of $2,000 in cash. The employee told us
        he had personal financial difficulties.

      • Another FAA employee withdrew about $50,000 in cash over a 12-month
        period (an average of $4,000 per month) but was not on official travel.
        Citibank eventually canceled the account and wrote off a balance of $6,600.
        The employee’s supervisor was not aware of the abuse until we notified
        her. The supervisor took disciplinary action by suspending the employee,
        and the employee had paid off $2,700 of the balance as of April 30, 2003.

Inappropriate ATM cash withdrawals occurred because these DOT employees
violated the FTR, which requires that travel advances not exceed the estimated
amount of the out-of-pocket cash expenses. Also, DOT did not set appropriate
limits on amounts of cash that employees could withdraw. The Operating
Administrations’ ATM monthly cash limits varied from $1,000 to $4,000.

To identify employees who abused cash withdrawals, we judgmentally selected
12 employees who made more than 100 cash withdrawals or withdrew more than
$20,000 in cash for the year, and found that 11 employees had made inappropriate
cash withdrawals. Therefore, as an additional level of control, the Operating
Administrations should sample and analyze their employees’ cash withdrawals
(e.g., those employees who had 50 or more cash withdrawals in a year11).


11
     We narrowed our sample to the most egregious misusers of cash withdrawal privileges, i.e., those that
     had over 100 cash withdrawals in a year. We observed that there were over 400 employees who made
     over 50 withdrawals in a year. We are suggesting that the Operating Administrations focus their
     reviews on the employees who had a high number of withdrawals in a year.
                                                                                                            13




DOT’s recent policy revisions also address this problem of inappropriate cash
withdrawals. The revisions have Citibank setting a limit of $400 per month on
cash withdrawals. Exceptions to the cash limit can easily be obtained in those
cases where the limit is not sufficient to cover travelers’ reasonable cash needs.
The new policy also requires the Operating Administrations to document the
reasons for authorizing any higher limits.

Follow-Up on Identified Misuse. OIG’s Office of Investigations reviewed the
95 cases of travel card misuse that we identified in our audit. The Office of
Investigations determined that in two cases the employee’s Operating
Administration had already identified the travel card misuse and had taken
administrative action. The Office of Investigations referred all 26 of our Coast
Guard cases to Coast Guard Investigations. An additional 58 cases have been
referred to the appropriate Operating Administration for appropriate action. The
Office of Investigations is still reviewing nine cases to determine whether criminal
prosecution is warranted.

Employees Delinquent in Paying Travel Card Bills
We found that DOT employees also abused their travel cards by failing to pay
their bills on time. Of the 96 employees who abused their cards, 22 were
delinquent.12 Citibank wrote off 14 of the 22 employees’ accounts totaling
$117,600 at the time of write-off. Citibank cancels and writes off accounts that
are over 180 days past due. The other eight employees were not delinquent over
180 days.

Of the 25 Federal agencies using GSA’s SmartPay travel card, DOT had the
highest delinquency rate as of January 2003. DOT’s rate was 12.9 percent,
compared to a range of 2 percent to 10 percent for all others. Coast Guard and
TSA accounted for 73 percent of DOT’s delinquent dollars. Without Coast Guard
and TSA, DOT’s delinquency rate would have been 7.4 percent, which would
have been below the overall Federal agency rate of 7.6 percent. As of May 2003,




12
     In this report, we refer to “delinquent employees” as those whose accounts are more than 60 days past
     due (i.e., past the billing date). Although an account is technically delinquent if the balance is not paid
     by the payment due date (which is 1 month after the statement date), we recognized that some
     employees had not received their reimbursements prior to their bills’ due dates. Thus, we allowed
     employees an additional 30 days from the due dates to have their vouchers processed and receive their
     reimbursements before categorizing them as delinquent.
                                                                                                          14



DOT’s delinquency rate had dropped further to 5.8 percent using GSA’s
methodology for calculating delinquency rates.13

The delinquencies we identified and DOT’s high delinquency rate occurred
because employees did not comply with their Citibank account agreements and
DOT travel card policy, and managers did not perform adequate oversight of their
employees’ travel card activities. For the 22 delinquent employees, we compared
the timing of their vouchers to when they became delinquent and found that none
of the delinquencies was due to receiving untimely travel voucher
reimbursements.

Supervisors only knew that 9 of the 22 employees were delinquent. Under DOT’s
prior travel card policy (in effect from September 1998 through March 2002),
coordinators were not required to monitor for delinquencies and did not routinely
get delinquency reports. The policy was in effect until March 26, 2002, when a
new policy required program coordinators to monitor and report delinquent
employees to their supervisors. Prior to the new policy, program coordinators
could request and receive delinquency reports, but there was no requirement to do
so.

Besides violating DOT policy and ethics regulations, delinquencies and write-offs
result in costs to DOT in the form of reduced rebates. Citibank rebates are
calculated through a complex formula that considers dollar-volume of
transactions, amount and length of delinquencies, and value of write-offs. In
FY 2002, DOT could have earned about $160,000 in rebates; however, DOT did
not receive any rebate due to the volume of delinquencies and write-offs.

To address the delinquency problem, OST is now requiring the Operating
Administrations, on a quarterly basis, to provide OST details on specific actions
taken regarding their employees who were delinquent more than 60 days. To
strengthen internal controls, we recommend that OST also reiterate to Operating
Administrations the policy requirements regarding delinquencies; i.e., program
coordinators are required to notify supervisors of delinquent employees, and
supervisors are to take appropriate actions.

Of the 14 employees whose accounts were written off, 8 were still employed at
DOT. We provided the names of these eight employees to their respective

13
     Using an alternate methodology, DOT’s Office of Financial Management calculated that DOT’s
     delinquency rate as of May 2003 was 3.5 percent. GSA and the credit card banks calculate delinquency
     rates by dividing agencies’ total outstanding monthly balances (dollars) into the balances that are
     overdue between 61 and 181 days after the billing dates. The Office of Financial Management
     calculates delinquency rates from the bills’ due dates, which are usually 30 days from the billing dates.
                                                                                    15



Operating Administrations and recommended that action be taken to ensure their
accounts are paid in full and that disciplinary action be taken for their violations of
DOT policy.

Best Practices. During our audit, we identified two practices available to DOT
to help control delinquencies in Government travel card accounts. First, the
Travel and Transportation Reform Act of 1998 allows agencies to deduct from an
employee’s pay the amount of delinquent funds the employee owes on his/her
travel card. Only Coast Guard had used this salary offset program to address its
delinquencies.

GSA has recommended another method, called split reimbursement, to address
delinquencies. A split reimbursement is where a delinquent employee agrees to
have part of his/her current travel voucher claim sent directly to Citibank to pay
the travel card charges included on that voucher. Under this method, the
delinquent employee retains use of the travel card but does not go further into debt
with Citibank. Only Coast Guard had used this split reimbursement method.

To demonstrate the value of these methods, we identified an FAA employee who
received $30,000 in travel reimbursements over a 12-month period, but became
delinquent on about $4,000 that was subsequently written off by Citibank. The
employee told us that she did not pay her travel card bills with her reimbursements
because of personal financial difficulties. If FAA had used salary offset or split
reimbursement, this employee’s charges to her travel card would have been paid,
avoiding the write-off.

While the split reimbursement program does not prevent an employee from
becoming delinquent, it can prevent future or further delinquencies. On the other
hand, salary offset can be an effective tool to ensure employees pay delinquent
accounts, thus preventing Citibank from having to write off these accounts. DOT
has begun, and should continue, to implement these two best practices to address
delinquencies.

Program Coordinators Are Key to Strengthening Controls
The Operating Administrations’ program coordinators are DOT’s first line of
defense in detecting and reporting travel card fraud, waste, and abuse. To
effectively perform their duties, program coordinators must have proper training
and be afforded sufficient time to carry out their travel card monitoring, reporting,
and follow-up duties.
                                                                                                    16



We found that DOT does not require continuing education or training for program
coordinators. Although GSA conducts annual training for program coordinators
on the SmartPay Program, DOT attendance by program coordinators is voluntary.
Some program coordinators advised us that they did not have any training other
than an initial briefing at which they received Citibank’s program coordinator
handbook. We believe that program coordinators should receive training at least
annually to ensure effective monitoring of cardholders’ activity and to share best
practices.

In addition, DOT had not established the program coordinators’ function in a
manner that would ensure effective management and oversight of cardholders’
activities. We found that program coordinators could not be effective in providing
oversight because they were given responsibility for a large number of
cardholders. For example, the Federal Highway Administration (FHWA) had
one program coordinator responsible for about 2,900 cardholders. Further,
program coordinators were given little time to perform their functions, which are
usually assigned as collateral duties. For example, one program coordinator’s
official position was Travel Branch Manager (a full-time job), but she was also
expected to effectively monitor over 3,000 travel cardholders.

OST’s recent travel card policy revisions address these issues by directing the
Operating Administrations to:

      • Ensure that program coordinators attend annual training and maintain
        proficiency in the use of Citibank’s electronic reporting system in order to
        effectively perform their monitoring functions, and

      • Assign an adequate number of program coordinators in a manner that
        ensures effective oversight over all travel cardholders.14

We believe the policy requiring the Operating Administrations to monitor for
travel card misuse, to provide training for program coordinators, and to assign an
adequate number of program coordinators will strengthen the oversight and
management of DOT’s travel card program.

Disciplinary Action Was Inconsistent
We found that the Operating Administrations’ policies and guidelines regarding
disciplinary actions for travel card abuses were inconsistent. OST, the Bureau of
Transportation Statistics, and the Saint Lawrence Seaway Development
14
     Although Citibank recommends 1 program coordinator for each 150 to 200 cardholders, OST will allow
     the Operating Administrations to set their own ratios.
                                                                                                        17



Corporation did not have any internal policies but relied on the Department’s
policy, which was not specific regarding disciplinary actions. The remaining
10 Operating Administrations did address disciplinary actions, but they differed in
the severity of the recommended actions. For example, FMCSA’s disciplinary
action for employees whose bills were more than 60 days past due called for 2- to
30-day suspensions. However, FAA’s disciplinary action for the same offense
called for a reprimand.

We contacted the supervisors of 55 employees who had misused their travel cards
and found that supervisors were only aware of 15 of the employee misuse cases.15
All 15 employees received some level of disciplinary action or were under review
to determine the disciplinary action.16

We reviewed the disciplinary actions taken or considered against the
15 employees and found that the disciplinary actions were inconsistent. For
example, an FAA employee who charged personal expenses of $51,000 and was
delinquent, was suspended for 5 days, while an FMCSA employee who made
personal purchases of $5,900 but had paid her bills resigned after being advised
that she might be terminated.

These inconsistent disciplinary actions were caused by the lack of consistent
disciplinary policy or guidance from OST. However, OST’s June 30, 2003
revisions to the travel card policy include a table of suggested penalties for various
travel card abuses (see Exhibit B). The policy requires Operating Administrations
to use this table as a guide in developing their own disciplinary actions for travel
card abuses. We believe this policy, when implemented, will address the problem
of inconsistent disciplinary actions.

RECOMMENDATIONS
To build on the actions already initiated by DOT and to further strengthen internal
controls over the travel card program, we recommend that the Assistant Secretary
for Budget and Programs and Chief Financial Officer, in coordination with the
Operating Administrators:

      1. Use data mining tools—such as reviews of Citibank databases for
         transactions to inappropriate merchants, comparisons of employees’ travel

15
     These 15 employees were identified by Citibank’s delinquency or other reports, turning themselves in,
     or anonymous tips.
16
     For the other 40 employees, neither the program coordinators nor supervisors were aware of the misuse.
     As discussed previously, although the March 2002 policy made program coordinators responsible for
     monitoring for employee delinquencies, they were never required to monitor for travel card misuses.
                                                                                18



      card charges to their travel vouchers, and reviews of employees’ cash
      withdrawals—to identify abusive travel card activity and ensure
      compliance with DOT policy.

   2. Block additional merchant category codes (e.g., cable TV services, health
      spas, and sporting goods) that are clearly not for official Government
      business.

   3. Require Operating Administrations to comply with the policy regarding
      delinquencies; i.e., program coordinators are to notify supervisors of
      delinquent employees, and supervisors are to take appropriate actions.

   4. Follow up to ensure the Operating Administrations are implementing to the
      maximum extent possible the best practices of salary offsets and split travel
      reimbursements to address delinquencies.

   5. Require Operating Administrations to ensure compliance with travel card
      payment policies, which will maximize rebates, and put the $160,000 in
      potential rebates to better use.

We also recommend that the Assistant Secretary for Administration in
coordination with the Operating Administrators:

   6. Report to OIG the actions taken with respect to the employees identified by
      our audit work as having abused their travel cards.

MANAGEMENT COMMENTS AND OIG RESPONSE
A draft of this report was provided to the Assistant Secretary for Budget and
Programs and Chief Financial Officer, and the Assistant Secretary for
Administration on July 17, 2003. The Assistant Secretaries jointly responded on
August 11, 2003, agreeing with all our recommendations and providing the
following comments. (See the Appendix to this report for the complete text of the
Assistant Secretaries’ comments.) The actions taken and planned are responsive
to our recommendations.

Recommendation 1. Concur. DOT’s program coordinators are responsible for
monitoring overall travel card program performance and implementing
departmental policy. One of their primary responsibilities includes monitoring
monthly reports to identify delinquency trends or possible misuse. Potential
problems are to be immediately communicated to appropriate management.
                                                                                  19



DOT’s new policy clearly spells out program coordinator responsibilities. DOT
anticipates implementing the use of data mining tools during August 2003.

Recommendation 2. Concur. All merchant category codes have been blocked
for all of DOT with the exception of the following categories: airlines; rental cars;
fuel and service stations; public transportation (bus, subway, etc.); hotels and
motels; and restaurants. Citibank has commented that DOT’s actions should
minimize misuse of its travel cards. This action will be completed by
September 2, 2003.

Recommendation 3. Concur. To help ensure compliance, DOT will require
Operating Administrations to submit quarterly reports to the Office of Financial
Management to monitor progress on travel card delinquencies and disciplinary
actions. The first quarterly reports are to be submitted by October 15, 2003.

Recommendation 4. Concur. DOT is in the process of implementing salary
offsets departmentwide. In previous guidance, Operating Administrations were
given authority to implement salary offsets on a voluntary basis. Employee salary
offsets will begin in September 2003. DOT is also in the process of automating
travel voucher processing, which will facilitate implementation of split travel
reimbursements. DOT expects to initiate this action during December 2003.

Recommendation 5. Concur. GSA’s master travel card contract allows Citibank
to subtract any rebates earned by Federal agencies from incurred write-offs, and
write-offs can be carried over the life of the contract. DOT’s write-off total
through the second quarter of FY 2003 was $569,000. With an approximate
earned quarterly rebate of $35,000, it would take about 4 years before DOT would
actually receive any rebate funds. Since there are 5 years remaining in the
Citibank contract, it is unlikely DOT will benefit from rebates.

Regarding DOT’s comment to recommendation 5, we recognize that DOT’s
rebates are impacted by past account write-offs. However, the second quarter
2003 write-off balance of $569,000 will be reduced by the amounts employees
pay on those accounts. During our audit, we identified seven employees who had
made payments on their written-off accounts. If DOT aggressively implements
salary offsets, the $569,000 balance will be reduced, allowing DOT to realize its
rebates quicker. Further, regardless of the new contractor, DOT’s actions to
ensure compliance with travel card payment policies (e.g., employees paying bills
on time) will maximize future rebates and allow DOT to put those funds to better
use.
                                                                                  20



Recommendation 6. Concur. The Assistant Secretary for Administration fully
supports accountability for appropriate disciplinary action for travel card misuse or
delinquency. The Departmental Office of Human Resource Management will
issue a memorandum to all Operating Administrations reminding them of their
responsibilities to review and evaluate the travel card offenses identified by OIG.
The memorandum will request that the Operating Administrations report the
disposition of these offenses to the Assistant Secretary’s office, including any
disciplinary actions taken. As noted in the report, disciplinary actions have
already been initiated against some of the individuals identified in the OIG audit.
The Assistant Secretary for Administration will summarize and forward the
reported data on the individuals to OIG. DOT anticipates that this effort will be
complete within 90 days of receiving OIG’s list of employees who abused their
travel cards. OIG provided the list of employees to DOT on August 26, 2003.

ACTION REQUIRED
The actions taken and planned by DOT are reasonable. Therefore, all our
recommendations are resolved, subject to follow-up requirements in DOT Order
8000.1C.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-1992 or Robin Hunt at (415) 744-3090.

                                         #
                                                                                                    21



EXHIBIT A. SCOPE AND METHODOLOGY
This audit included individually billed travel cards and did not include centrally
billed accounts. For the period July 1, 2001, through June 30, 2002, about
90,000 DOT employees had Government travel cards and made over 1.4 million
transactions totaling about $250 million.

To address our objective regarding travel card abuse, we considered abusive travel
card activity to include (1) use of the card for anything other than official
Government travel (e.g., personal purchases and cash), and (2) cases in which
employees did not pay the bill timely, regardless of whether the charges were for
official travel or not.

We used the five data mining characteristics listed below to identify those
employees having a high potential to abuse their Government travel cards:
      (1) wrote 3 or more non-sufficient funds checks to Citibank;
      (2) had their cards canceled for delinquency and nonpayment;
      (3) made more than 100 automated teller machine withdrawals or
          withdrew more than $20,000 in a year;
      (4) made purchases at categories of merchants identified by DOT’s Office
          of Financial Management as potentially inappropriate for Government
          travel;17 and
      (5) had airline or hotel charges with no corresponding travel voucher
          payment in DOT’s automated accounting system.

We used the first three characteristics based on prior review work conducted by
GAO and the Departments of Education and Defense Offices of Inspector General,
which determined that these characteristics were often associated with travel card
delinquency and misuse. We used the fourth and fifth characteristics to identify
potential personal use of the travel card. (For the fifth characteristic, we
developed a computer matching process to identify charges to the Government
travel card when no reimbursement travel voucher was paid by DAFIS within
90 days of the charge.)

Of the 90,000 DOT employees who had travel cards, we identified a universe of
about 10,000 employees having one or more of the 5 characteristics during the

17
     The Office of Financial Management identified 114 merchant categories as potentially inappropriate
     and blocked 46 of these categories departmentwide. The Office of Financial Management
     recommended that the Operating Administrations review and take steps to block as many of the other
     68 categories as they deemed appropriate.




Exhibit A. Scope and Methodology
                                                                               22



period July 1, 2001, through June 30, 2002.             From that universe, we
nonstatistically selected 146 employees for in-depth review. These 146 employees
had over 12,000 travel card transactions from July 1, 2001, through June 30, 2002.
These employees were located throughout the country from all DOT Operating
Administrations except the Bureau of Transportation Statistics and the Saint
Lawrence Seaway Development Corporation.                   We excluded these
two organizations because of their low volume of transactions.

We also reviewed DOT delinquency reports provided by Citibank and
Government-wide delinquency and charge-off reports provided by GSA for the
period July 2001 through May 2003. We compared DOT’s reported delinquency
rates to other Federal agencies. For the purposes of this audit, we defined
delinquent employees as those whose payments were more than 60 days past due.
We interviewed employees, program coordinators, and supervisors to determine
the reasons for delinquencies.

We reviewed the Federal Travel Regulations and DOT’s policies and procedures
regarding travel cards. This included reviewing all the Operating Administrations’
draft and final internal travel card policies.

We performed the audit from July 2002 through June 2003 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.




Exhibit A. Scope and Methodology
                                                                                       23



EXHIBIT B. DOT’S TABLE OF PENALTIES FOR TRAVEL
           CARD ABUSE
      TABLE OF OFFENSES AND DISCIPLINARY ACTIONS
                         FOR
 DELINQUENT AND UNAUTHORIZED USE OF THE GOVERNMENT
                 TRAVEL CHARGE CARD

The following table is provided as guidance for administering discipline for the
unauthorized use of the Government approved charge card accounts, for other
than disputed charges. This table includes a range of penalties providing the
supervisor with latitude to consider appropriate mitigating or aggravating
circumstances. Columns delineating the number of offenses, first, second, and
third, are provided for the application of progressive corrective actions.
NOTE: This table is solely a sample. OAs need not follow this table and are
free to develop their own Table of Penalties for their organization.
Nature of Offense                           First Offense     Second          Third
                                                              Offense         Offense
Payment of Government contractor-           Oral              Written         10-days
issued credit card bill is sixty (60)       admonishment      reprimand to    suspension.
days or more past due.                      to written        5-days
                                            reprimand.        suspension.

Failure to pay Government                   Written           Written         Removal.
contractor-issued credit card after         admonishment      reprimand to
receiving reimbursement (60 days or         to 5-days         10-days
more past due).                             suspension.       suspension.

Government contractor-issued credit         Written repri-    10-days         Removal.
card used for personal expenses or          mand to 5-days    suspension to
purchases not related to official           suspension and    removal.
business.                                   offer
                                            counseling.

Government contractor-issued credit         Written repri-    10-days         Removal.
card used for personal purchases (not       mand to 10-       suspension to
related to official travel) and             days suspension   removal.
employee is delinquent in payment           and offer
(60 days or more past due).                 counseling.

Misuse and/or conversion of                 Written           Removal.
Government funds for personal use.          reprimand to
                                            removal.
Source: DOT’s June 30, 2003 Travel Card Policy.

Exhibit B. DOT’S Table of Penalties for Travel Card Abuse
                                                               24



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


    THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


         Name                                    Title

     Glenn Griser                        Program Director
     Leroy Davis                         Project Manager
     Cindy Allen                         Management Analyst
     Petra Rose                          Senior Statistician
     Eric Whipkey                        Statistician
     William Savage                      Computer Specialist
     Shirley Murphy                      Writer/Editor
     Thomas Lehrich                      Counsel




Exhibit C. Major Contributors to this Report
                                                                                      25




APPENDIX. MANAGEMENT COMMENTS
                                     Aug 11, 2003
MEMORANDUM TO:                Alexis M. Stefani
                              Principal Assistant Inspector General for
                               Auditing and Evaluation

FROM:                         Donna McLean

                              Vincent T. Taylor
                              Assistant Secretary for Administration

SUBJECT:                      Action: Response to the Office of Inspector General (OIG)
                              Draft Report “Audit of the Use of Government Travel
                              Cards,” Department of Transportation (DOT)

In response to the OIG draft audit report of the DOT’s use of Government travel charge
cards, we offer the following comments and responses to the draft report recommendations.
As noted in the draft report, the Department has taken aggressive action over the past year to
strengthen its travel card program, and has achieved significant improvements to the
Program’s operation. We appreciate this opportunity to review and comment on the draft
report, and look forward to continued efforts with the OIG to identify additional program
improvements.

Recommendations and Responses

Recommendation 1

Use data mining tools – such as reviews of Citibank databases for transactions to
inappropriate merchants, comparisons of employees’ travel card charges to their travel
vouchers, and reviews of employees’ cash withdrawals – to identify abusive travel card
activity and ensure compliance with DOT Travel Policy.

Response

Concur -- DOT’s Agency/Office Program Coordinators (A/OPCs) are responsible for
monitoring overall program performance, implementing departmental travel policy, and
alerting management of emerging problems. One of their primary responsibilities
includes monitoring monthly reports to identify delinquency trends or possible misuse.
Potential problems are to be immediately communicated to the appropriate management.




Appendix. Management Comments
                                                                               26

Our new policy clearly spells out the A/OPCs responsibilities in this area and requires
that they attend annual training. We anticipate completing this action during August
2003.

Recommendation 2

Block additional merchant category codes (e.g., cable TV services, health spas, and
sporting goods) that are clearly not for official Government business.

Response

Concur -- All merchant category codes (MCCs) have been blocked for all of DOT with
the exception of the following:

A – air
B – vehicle (rental cars)
C – hotels/motels
D – misc. transportation (taxi, bus, subway)
I – restaurants
M – campsites (necessary for Alaska travel)
S – fuel

Citibank management has reiterated on numerous occasions that DOT has sufficiently
exhausted MCC blocks in a way that should minimize misuse of the travel card. This
action will be completed by September 2, 2003.

Recommendation 3

Require the Operating Administrations (OAs) to comply with policy regarding
delinquencies; i.e., the A/OPCs are to notify supervisors of delinquent employees, and
supervisors are to take appropriate actions.

Response

Concur -- In order to ensure that the OAs comply with policy, quarterly reports to the
Office of Financial Management will be required to track progress in a number of areas
including delinquencies, disciplinary actions, charge-offs, and possible misuse. This
action has begun and the first quarterly report is to be submitted by
October 15, 2003.




Appendix. Management Comments
                                                                                27

Recommendation 4

Follow up to ensure the OAs are implementing to the maximum extent possible the best
practices of salary offsets and split travel reimbursement to address delinquencies.

Response

We are in the process of implementing salary offsets Department-wide. Once the labor
unions review this process and provide comments accordingly, it will be put into effect.
In previous departmental guidance on this subject, the OAs were given authority to
implement salary offsets on a voluntary basis. We expect to initiate salary offsets for
non-bargaining unit employees during September 2003. The OAs with bargaining unit
employees will still need to satisfy local bargaining requirements prior to implementing
this provision.

We are also in process of automating our travel vouchering process nationwide which
will facilitate implementation of split travel reimbursements. We expect to initiate this
action during December 2003.

Recommendation 5

Require the OAs to ensure compliance with travel card payment policies, which will
maximize rebates, and put the $160,000 in potential rebates to better use.

Response

Concur -- However, it should be noted that at this point, complying with travel card
payment policies will not result in rebates generated back to DOT. The General Services
Administration Master Travel Charge Card Contract allows Citibank to subtract any
rebates earned by Federal agencies from incurred write-offs. These write-offs can be
carried over the life of the contract. DOT’s write-off total as of the end of second
quarter, fiscal year 2003, was $569,000. With an approximate quarterly rebate of
$35,000 it would take about four years before we would see any rebates, assuming that
we are not incurring any additional write-offs. Since there are five years remaining in
Citibank contract, there is a good chance we will not see any rebates for the remainder of
the Citibank contract.

Recommendation 6

The Assistant Secretary for Administration should ensure that the OAs are aware of their
responsibilities to review and evaluate the travel card offenses of their employees
identified in this audit and initiate appropriate disciplinary action.



Appendix. Management Comments
                                                                               28

Response

Concur -- The Assistant Secretary for Administration fully supports accountability for
timely and appropriate disciplinary action for instances of travel card misuse or
delinquency. The Departmental Office of Human Resource Management, on behalf of
the Assistant Secretary for Administration, will issue a memorandum to all operating
administrations reminding them of their responsibilities to review and evaluate their
employees’ travel card offenses identified by OIG in relation to this audit. The
memorandum will request that each operating administration report the disposition of this
review process to the Assistant Secretary’s office, including any disciplinary
actions taken to correct the identified misconduct. Operating Administrations are
responsible for determining and applying appropriate disciplinary action, as each has
delegated or statutory personnel authority. As noted in the report, informal or formal
disciplinary actions have already been initiated against some of the individuals identified
in the OIG audit. The Departmental Office of Human Resource Management will
prepare a summary of the data reported and forward it to the OIG via the Assistant
Secretary for Administration. We anticipate that this effort will be complete within 90
days of receiving the audit listing from OIG.




Appendix. Management Comments
29
